<html>
<title> - REVIEW OF THE IMPACT OF IMPORTED CONTAMINATED FOOD AND FEED INGREDIENTS AND OF RECENT FOOD SAFETY EMERGENCIES ON FOOD SAFETY AND ANIMAL HEALTH SYSTEMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      REVIEW OF THE IMPACT OF IMPORTED CONTAMINATED FOOD AND FEED
       INGREDIENTS AND OF RECENT FOOD SAFETY EMERGENCIES ON FOOD
                    SAFETY AND ANIMAL HEALTH SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2007

                               __________

                           Serial No. 110-19


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
41-165                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania             BOB GOODLATTE, Virginia
    Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 KEVIN McCARTHY, California
NICK LAMPSON, Texas                  TIM WALBERG, Michigan
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                           Professional Staff

                     Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

            William E. O'Conner, Jr., Minority Staff Director

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota, opening statement..........................     1
    Prepared statement...........................................    30
Goodlatte, Hon. Bob, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     3
    Prepared statement...........................................    35
Lampson, Hon. Nick, a Representative in Congress from the State 
  of Texas, prepared statement...................................    38
Donnelly, Hon. Joe, a Representative in Congress from the State 
  of Indiana, prepared statement.................................    39

                               Witnesses

Acheson, Dr. David, M.D., F.R.C.P., Assistant Commissioner for 
  Food Protection, United States Food and Drug Administration, 
  Rockville, Maryland............................................     4
    Prepared statement...........................................    40
Petersen, Dr. Kenneth E., Food Safety Inspection Service, United 
  States Department of Agriculture, Washington, D.C..............     6
    Prepared statement...........................................    55

                           Submitted Material

Safe Food Coalition, Washington, D.C.............................    63
Wiley, Mr. Ladd, Executive Director, Coalition for a Stronger 
  FDA, Washington, D.C...........................................    67
Carter, Ms. Brandy, Executive Director/CEO, Kansas Cattlemen's 
  Association, Manhattan, Kansas.................................    69
Mason, Mr. Stephen R., Acting Assistant Commissioner for 
  Legislation, Department of Health & Human Services, Food and 
  Drug Administration, Rockville, Maryland.......................    71
Becker, Mr. Geoffrey S., Specialist in Agricultural Policy, 
  Resources, Science, and Industry Division, Congressional 
  Research Service, Washington, D.C..............................    60


  HEARING TO REVIEW THE IMPACT OF IMPORTED CONTAMINATED FOOD AND FEED 
 INGREDIENTS AND OF RECENT FOOD SAFETY EMERGENCIES ON FOOD SAFETY AND 
                         ANIMAL HEALTH SYSTEMS

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                  House of Representatives,
                          Committee on Agriculture,
      Subcommittee on Horticulture and Organic Agriculture,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Collin C. 
Peterson [Chairman of the Committee] presiding.
    Members present: Representatives Peterson, Holden, 
Etheridge, Boswell, Baca, Scott, Pomeroy, Kagen, Donnelly, 
Musgrave, Neugebauer, Boustany and Goodlatte.
    Staff present: Rob Larew, Chandler Goule, Craig Jagger, 
Tyler Jameson, John Riley, Sharon Rusnak, April Slayton, Debbie 
Smith, Kristin Sosanie, Lindsey Correa, John Goldberg, Alise 
Kowalski, Kevin Kramp, Pam Miller, Pete Thomson, and Jamie 
Weyer.

   STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    The Chairman. The committee will be in order. Welcome 
everybody. Good morning and welcome to today's hearing of the 
House Agriculture Committee. I will start by acknowledging our 
witnesses; Dr. Kenneth Petersen, with the USDA's Food Safety 
Inspection Service and Dr. David Acheson with the Food and Drug 
Administration. I want to thank you both for joining us today 
to update the committee about the current situation surrounding 
melamine tainted products from China that have been used in pet 
food and animal feed.
    Based on what I have heard from USDA and FDA, I am relieved 
that contaminated feed does not pose a risk to the health of 
poultry, swine and farm fish that ate it, nor do the products 
from these animals pose a threat to the food supply or human 
health. However, the explanations from USDA and FDA leave me 
with the uncomfortable feeling that maybe we just got lucky 
this time. The next time tainted food or feed products slip 
through the very large cracks in our import inspection system, 
we may be forced to confront a much more serious situation in 
terms of animal or human health.
    As food and feed imports from countries around the world 
continue to rise, the rate of inspection of those products 
entering this country has declined. According to recent 
newspaper reports, in the past five years, as food imports have 
grown by almost 50 percent. FDA has lost about 20 percent of 
its food inspectors. Today, FDA is inspecting only 1 percent of 
the products that enter the U.S. food supply that it is 
responsible for monitoring. This is a recipe for major problems 
down the road and the recalls and quarantines we have seen in 
response to mislabeled melamine tainted products are minor 
compared to what we could see in the future if this problem is 
not addressed.
    There are many questions we need to answer as we move 
forward. First, I am interested to hear if USDA and FDA feel 
confident about the existing inspection procedures that are in 
place now. Are those procedures adequate to ensure the safety 
of imported foods and feed products? If changes need to be made 
or if additional resources are needed to make those changes, I 
think the committee should be aware of that.
    Second, I am interested in the issue of who bears the 
ultimate responsibility for the safety and integrity of 
imported products. Who will ultimately be held responsible for 
the melamine tainted products? According to news reports, it 
was common knowledge amongst Chinese manufacturers that 
melamine was routinely used as an additive to spike protein 
levels, yet no company or government entity in the U.S. seemed 
to be aware of it.
    For meat and poultry products, we only accept imports from 
countries with food safety systems that are equivalent to our 
own, giving consumers here a certain level of assurance about 
the integrity of those goods. With FDA-regulated food and feed 
products, however, we have no such assurance that producers in 
foreign countries are held to any safety standards, whatsoever, 
much less the kind of standards we expect from our domestic 
producers.
    I hope that the seriousness of the recent risk assessment 
efforts undertaken by multiple government agencies in the wake 
of the melamine incidents are not lost on our trade 
negotiators. Advocates of free trade have done consumers a 
disservice by failing to address the simple fact that expanding 
trade with countries that fail to enforce food and safety and 
environmental standards make our domestic food supply less 
safe.
    I do appreciate the efforts by USDA and FDA to keep the 
members of this committee and the public informed about the 
ongoing investigation related to contaminated food and feed 
products. However, moving forward, I am interested to hear not 
only how the agencies that reacted to and investigated the 
current situation, but also what lessons have been learned and 
what we can do to better detect and protect against 
adulterated, mislabeled and unsafe imports.
    I look forward to hearing more about the current situation 
today and to addressing some of these serious questions about 
the safety of products that we are feeding our pets, our 
livestock and our families. And I would advise members that 
their opening statements will be made part of the record with 
the exception of one person, that is my good friend and the 
ranking member, Mr. Goodlatte from Virginia. I will recognize 
him for an opening statement and then we will proceed to the 
witnesses.

 STATEMENT OF HON. BOB GOODLATTE A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Well, thank you, Mr. Chairman, and I thank 
you for calling this hearing. While the committee has been 
correctly focusing its efforts on the Farm Bill, the recent 
contamination of pet and livestock feed warrants our attention 
and continued oversight. It is important to note however, that 
the Food and Drug Administration and the U.S. Department of 
Agriculture are still conducting their investigations and there 
are still many unanswered questions. I appreciate the efforts 
of both departments to keep the members of the committee 
updated with the most recent information and look forward to 
learning the conclusions of their findings once the entire 
investigation is complete.
    As the representative of a district that is heavily 
oriented towards animal agriculture, I am always interested in 
any issue that affects livestock feed. And like the rest of my 
colleagues, I have been approached by family and friends who 
are quite concerned about the health and safety of their pets. 
We all sympathize with those who have lost their pets or who 
have pets that have been adversely affected. As we continue to 
learn more about this matter, we have discovered that in 
addition to pets, some hogs and poultry may have also received 
contaminated feed.
    As part of the pet food manufacturing process, there is a 
certain amount of excess product or ingredients that are sold 
into the livestock feed processing sector. As far as we know at 
this point, no one involved in the animal feed business 
knowingly sold or bought contaminated salvage material. Based 
on what we know so far, the livestock feed that had been 
contaminated was sold and consumed before anyone in the United 
States was aware of the problem. The fact and extent of this 
occurrence suggests that some attention to the food safety 
systems of our trading partners may be warranted.
    I appreciate the actions thus far by the administration to 
resolve this issue, specifically the FDA's recent decision to 
take the extraordinary action of detaining all vegetable 
protein products imported from China. During the course of 
sampling various vegetable proteins and products made with 
vegetable proteins, the FDA has linked all of the samples 
testing positive for contamination to imports from China. As 
part of the FDA's investigation, they will identify the actual 
manufacturer or manufacturers of the contaminated products 
imported from China.
    While the source of the contamination in China is currently 
unknown, I hope the FDA's detention order will send a strong 
signal to the Chinese industry and government that we are 
serious about this issue and will not tolerate violations of 
our food import standards. I look forward to the testimony of 
our witnesses and any light that they can shed on this issue. 
Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman and again want to thank 
our witnesses for being with us today. Your statements will be 
made part of the record in their entirety, so we would 
appreciate it if you could summarize the main points in 5 
minutes and welcome to the Committee. Mr. Acheson.

  STATEMENT OF DAVID ACHESON, ASSISTANT COMMISSIONER FOR FOOD 
         PROTECTION, U.S. FOOD AND DRUG ADMINISTRATION

    Dr. Acheson. Good morning, Mr. Chairman and members of the 
committee. I am Dr. David Acheson, Assistant Commissioner for 
Food Protection at FDA. I am joined here today with my 
colleagues, Dr. Sundloff from Center for Veterinary Medicine, 
Dr. Solomon from the Office of Regulatory Affairs and Walter 
Batts from our Office of International Programs.
    In my newly created position, Commissioner von Eschenbach 
has asked me to provide advice and counsel on strategic and 
substantive food safety and food defense matters based on my 
knowledge and experience in the science of food safety. I will 
discuss FDA's response to the importation of contaminated 
animal feed ingredients and the impact of this incident on food 
safety and animal health. But first let me share with you some 
of the broader complexities and challenges we face in 
regulating our Nation's food system.
    At FDA, ensuring that products we regulate are safe and 
secure is a vital part of our public health mission. The agency 
regulates everything Americans eat except for meat, poultry and 
processed egg products, which are covered by USDA. FDA's 
responsibility extends to live food animals and animal feed. 
Through trans-agency cooperation and leveraging FDA public 
health resources, we are working to ensure that America's food 
supply is among the safest in the world.
     However, we face significant challenges in our mission, 
such as the increased globalization of the food supply; 
changing consumer expectations for all foods; changes in 
farming, manufacturing and processing practices; an outdated 
infrastructure relative to the increasing complexities; the 
increased concern of a deliberate terrorist attack on the food 
supply; and challenges in tracking food rapidly when a problem 
does arise. The melamine case we are discussing today 
illustrates many of these challenges we face and highlights the 
need for new scientific and technological approaches to 
advanced food protection.
    FDA's investigations into contaminated pet food and farm 
feed began in March 2007 and are an ongoing priority for the 
agency. As we obtain more investigative and scientific 
information, our assumptions and knowledge about the problem 
are constantly changing. The investigations have revealed that 
the underlying cause of the contamination was imported pet food 
ingredients which contained the industrial chemical melamine 
and melamine analogs.
    FDA has identified the source, the importer, the supplier 
and other parties involved with the distribution of 
contaminated product declared, at entry, as wheat gluten, but 
which we now know was wheat flour. In mid-April, FDA became 
aware of a suspicious shipment of a product identified in 
labeling and import records as rice protein concentrate that 
was also used in the manufacture of pet foods. Upon inspection, 
FDA detected the presence of melamine and melamine analogs in 
the imported protein concentrate and the finished pet food and 
began its investigation to track and trace all uses of that 
material.
    Some of this contaminated pet food was unknowingly sent as 
salvage feed to hog producers in several States. Additionally, 
FDA learned that pet food salvage containing contaminated wheat 
gluten was used in chicken feed on some farms in the States of 
Indiana, Missouri and Arkansas. During the past eight weeks we 
have aggressively worked to identify the sources and scope of 
the contamination, trace the distribution of contaminated 
products through the supply chain and assure their removal from 
store shelves.
    FDA's response has been a team effort in which we have 
mobilized more than 400 employees to collect pet food and 
animal feed samples, monitor the recall and take consumer 
complaints; conduct numerous inspections of manufacturing 
facilities and warehouses to trace the contaminated product and 
analyze more than 700 pet food and ingredient samples in FDA 
field labs and our Forensic Chemistry Center. Additionally, we 
have instituted an import alert covering all vegetable protein 
products from China in which all entries are detained and 
examined. We have dispatched investigatory personnel to China 
and worked closely with agricultural and health agencies in all 
50 States.
    Finally, we have issued a high priority surveillance 
assignment for our field staff to examine imported plant 
protein ingredients and finished products commonly found in the 
United States' food and feed supply. These products include 
wheat gluten, corn gluten, corn meal, soy protein, rice bran 
and rice protein concentrate. At this time we have no evidence 
of harm to humans associated with the processed pork or poultry 
products from animals that consumed contaminated feed and we 
believe the likelihood of human illness from eating these 
products is very low.
    This assessment is based on a number of factors, including 
dilution of the contaminants in the original protein 
concentrate as they move through the food system and the fact 
that the pet food is only part of the total feed given to the 
chickens and hogs. The assessment also takes into account that 
these food products are only a small part of the average 
American diet. The human health risk assessment completed with 
the input of scientists from FDA, CDC, USDA, EPA and DHS looks 
at the potential risk to human health from consuming meat from 
hogs and chickens known to have been fed the contaminated 
animal feed.
    This team is now compiling a scientific assessment of the 
risk to animal health associated with ingestion of animal feed 
containing melamine in its compounds. As an added precaution, 
we have asked CDC to use a surveillance network to monitor for 
signs of human illness that could indicate a contamination of 
the human food supply. To further evaluate any potential harm 
to humans, FDA is developing and implementing additional tests 
and risk assessments based on the toxicity of melamine 
compounds and the amounts that consumers could be expected to 
consume. If any evidence surfaces to indicate there was 
potential harm to humans, appropriate and aggressive action 
will be taken.
    FDA is examining recent incidents, as well as global food 
system trends to determine what changes are necessary to 
improve the safety of human and animal foods. We are focusing 
our food protection review in three key areas; prevention, 
intervention and response; preventing contamination through 
strong science-based, risk-based preventative controls with key 
partners; improved intervention, using modern technology to 
establish a comprehensive, integrated food information system 
to analyze information and detect potential product 
contamination; and rapid response to improve product tracking 
and related lab research capacity.
    We know that the future will require different resources, 
technology and science to effectively enhance the safety of all 
human and animal foods. We will continue to work closely with 
our food protection partners at each point in the supply chain 
to establish the most protective measures. Mr. Chairman, the 
animal feed investigation has been a massive effort that will 
continue until we are completely satisfied that the underlying 
cause has been determined, the scope is identified and full and 
complete corrective action has been implemented and found to be 
effective.
    Thank you for the opportunity to discuss these important 
food safety issues with you. I will be glad to answer questions 
that you may have.
    The Chairman. I thank the gentleman. I would like to 
welcome Dr. Petersen. Welcome to the Committee.

   STATEMENT OF KENNETH E. PETERSEN, FOOD SAFETY INSPECTION 
        SERVICE, UNITED STATES DEPARTMENT OF AGRICULTURE

    Dr. Petersen. Good morning, Mr. Chairman, Congressman 
Goodlatte and other members of the committee. I am the 
Assistant Administrator for Field Operations for the Food 
Safety and Inspection Service of the United States Department 
of Agriculture. We do appreciate the opportunity to appear 
before you today to discuss this ongoing investigation of 
animal feed supplemented with pet food scraps containing 
melamine and melamine related compounds. I also am pleased to 
be here today with my colleague, Dr. David Acheson, from the 
Food and Drug Administration.
    Before I get to the details, let me begin by emphasizing 
that FSIS takes very seriously its responsibilities to ensure 
the safety of meat, poultry and processed eggs products. We do 
not believe the current incident poses a threat to human health 
and we are not aware of any human illnesses that ever have been 
linked to melamine or melamine related compounds. Our mission 
at FSIS is to ensure that meat, poultry and processed egg 
products distributed in commerce for use as human food are 
safe, secure, wholesome and accurately labeled.
    FSIS is charged with administering and enforcing the 
Federal Meat Inspection Act, the Poultry Products Inspection 
Act, the Egg Products Inspection Act, portions of the 
Agricultural Marketing Act and regulations that implement these 
laws. FSIS also ensures compliance with the Humane Methods of 
Slaughter Act, which requires that all livestock be handled and 
slaughtered in a humane manner. The agency is responsible for 
determining equivalence to Federal standards at the State level 
and among our foreign trading partners.
    Essentially, our agency is charged with ensuring the safety 
of the meat, poultry and processed egg products supply once 
animals leave the farms for the slaughter and processing 
establishments. We inspect each animal at slaughter before 
applying the mark of inspection. We also inspect all processing 
establishments on a daily basis to ensure sanitary and other 
regulatory requirements are met. Our inspection personnel form 
the backbone of FSIS public health infrastructure in 
laboratories, plants and import houses throughout the country.
    In Fiscal Year 2006, the agency had approximately 7,600 
full-time personnel protecting the public health in 6,000 
federally inspected establishments nationwide where FSIS 
inspection personnel performed antemortem and postmortem 
inspection and processing inspection procedures to ensure 
public health requirements were met. This included the 
processing of over 46 billion pounds of livestock carcasses, 
almost 57 billion pounds of poultry carcasses and about 4.4 
billion pounds of liquid egg products.
    It has been estimated that approximately 60 cents of every 
food dollar in the United States is spent on products that FSIS 
inspects. In addition, during Fiscal Year 2006, approximately 
3.9 billion pounds of meat and poultry and about 5.9 billion 
pounds of egg products were presented for import inspection at 
U.S. ports and borders. FSIS also has program inspectors 
nationwide who conduct food safety, food defense and outbreak 
investigators and enforcement.
    FSIS has been working cooperatively with FDA on the 
investigation into the swine and poultry feed incident 
involving melamine and melamine related compounds. We were 
first alerted, at the field level, on April 17 and at the 
headquarters level on April 19 to the possibility that 
contaminated pet food scraps may have been used in animal feed 
by producers of food animals. Since that initial contact, FSIS 
has been assisting FDA with the investigation, including on-
site visits to farms and daily communication with State and 
local officials.
    By April 26, investigative results confirmed that a 
relatively limited number of hogs had consumed contaminated 
feed. At that time, FSIS joined FDA in alerting the public that 
this feed had been fed to some hogs and assured the public that 
those hogs would not be allowed to enter the food supply until 
we could conduct the necessary scientific work to make an 
appropriate safety determination. Due to the limited 
information available, USDA could not determine whether it was 
appropriate to place the mark of inspection on foods derived 
from those animals and so we did not do so at that time.
    FSIS worked with States and producers to quarantine or hold 
animals until further notice. We also announced that if 
identified animals needed to be depopulated, producers would be 
appropriately compensated for any costs. On April 30, USDA and 
FDA announced that the agencies had learned the pet food scraps 
from pet food manufactured with the wheat flour contaminated 
with melamine and melamine compounds had been sold to a limited 
number of farms for use as supplements in chicken feed. As with 
the pork products, we believe that humans were highly unlikely 
to become ill from consuming products from poultry that had 
consumed this feed.
    Likewise, as in the case of swine, we initiated appropriate 
controls in coordination with our Federal and State partners at 
the farm level. As with the hogs, affected chickens on the 
affected farms were voluntarily held while we further assessed 
the situation. This past Monday, May 7, FSIS determined that 
the mark of inspection could now be placed on meat and poultry 
products when the animals were from farms where the feed that 
was fed to those animals tested negative for melamine and the 
melamine compounds. This determination was made after a risk 
assessment was conducted by scientists from FSIS, FDA, the 
Centers for Disease Control and Prevention, EPA and the 
Department of Homeland Security.
    The risk assessment found that consuming meat from hogs and 
chickens known to have been fed the animal feed supplemented 
contaminated pet food scraps, represented a very low risk to 
human health. In the most extreme risk assessment scenario, the 
scientists assumed the unlikely event that all the solid food a 
person consumed in an entire day was contaminated with 
melamine. Even given that extreme assumption, the potential 
exposure was about 2500 times lower than the dose considered 
safe, well below any level of public health concern.
    As I have already mentioned, FDA and USDA have confirmed 
that scraps of contaminated pet food that contained only low 
levels of melamine were distributed to farms in a limited 
number of States and added to the swine and poultry feed. These 
scraps constituted a small percentage of the farm animal 
rations. In addition, melamine is known to be rapidly excreted 
in the urine of the animal. When exposure levels are much 
higher, as was the case with cats and dogs, the melamine and 
its compounds appeared to cause the formation of crystals 
resulting in kidney damage. There is no such indication of 
kidney damage in hogs.
    Both hogs and chickens known to have consumed the 
contaminated feed appear to be healthy. The assessment that the 
risk to human health is very low is based on several factors, 
including the dilution of contaminated feed from the original 
concentrate as it moved through the food system. First, it was 
a small component of the pet food. Second, that pet food was a 
small component of any of the feed given to hogs and poultry. 
Third, it is not known to accumulate in the body of animals and 
even if it was present in pork or chicken. Fourth, pork and 
poultry make a relatively small portion of a balanced American 
diet.
    Neither FDA nor FSIS has uncovered any evidence of harm to 
swine or poultry that were fed the contaminated feed. This 
dilution factor was an important piece of data considered in 
the multi-agency science-based risk assessment and helped 
support the conclusion of a very low risk to human health from 
eating the animals.
    As the investigation proceeded, we now know that in several 
cases, on-farm feed samples tested negative for melamine and 
melamine related compounds. Those tests were conducted in 
Federal and State laboratories.
    USDA has concluded, based on the human health risk 
assessment and the inability to detect melamine in the feed 
sample, that those animals, where there is a negative feed 
test, no longer need to be quarantined or withheld from 
processing. In other cases, feed samples have tested positive 
or we simply do not have a feed sample available. Those animals 
continue to be withheld from processing but are not yet being 
culled, pending the results of an animal exposure risk 
assessment. That new information is expected shortly, likely 
this week.
    USDA and FDA continue to work together in conducting a full 
and comprehensive investigation. As additional information is 
confirmed, updates will be provided and decisions will be made 
using the best available science with the singular goal of 
protecting the public health. We will also make the risk 
assessment available for public comment. The scientists that 
worked on the risk assessment are compiling scientific 
assessment of the risks to animals associated with the 
ingestion of this potentially contaminated feed.
    We do recognize how important it is to communicate with all 
of our stakeholders, our partners and the general public in an 
open and transparent manner. Throughout the ongoing 
investigation with FDA, we have been sharing information with 
State Departments of Agriculture and State veterinarians. We 
continue to keep trading partners informed through the Foreign 
Agriculture Service. We have been updating our stakeholders 
from industry and consumer organizations. We have been working 
with FDA to keep the general public informed. We will continue 
to reach out to our stakeholders, our partners and the general 
public to keep them informed as the investigation continues. We 
will continue to keep Congress informed of our ongoing 
investigation, as well.
    Thank you for providing us the opportunity to make these 
comments and we look forward to any questions you may have.
    The Chairman. I thank the gentleman and thank both of the 
witnesses for their testimony. Now we will have a round of 
questions that I will start off. I think you folks have done a 
pretty good job since you discovered the situation, but if 
these pets not been affected, you wouldn't have even known 
about this contamination. We also saw this with the spinach 
situation, where until people got sick, we didn't know about 
it. So Mr. Acheson, you have been put in a new position, is 
that correct?
    Dr. Acheson. That is correct, yes.
    The Chairman. So what are you, Assistant----
    Dr. Acheson. Assistant Commissioner of Food Protection at 
FDA.
    The Chairman. Okay. And in your testimony, I don't believe 
you asked for any more inspectors or resources, am I right?
    Dr. Acheson. With regard to resources, part of my mission 
is to develop a strategic plan around food safety and food 
defense and a piece of that is going to be looking at what 
further resources we will need to get the job done.
    The Chairman. Well, I would hope so, because I hope the 
response is not to create another level of bureaucracy, which 
is what we seem to do in government a lot of the time, instead 
of focusing on putting more people on the ground. So that leads 
me to my main question for Mr. Acheson. The imports that you 
folks regulate have gone up 213 percent from 1996 through 2005. 
We used to inspect 1.7 percent of those shipments, in 2005, it 
was 1.27 percent and now it is down to 1 percent.
    There has been some increase in field employees, a 41 
percent increase, but we can't even find out how many of them 
are involved in inspecting imported food. In 1995, we know 
there were 595 people and we can't find out how many there are 
now. But even if you took all of the new employees and put them 
into inspecting imported food, you still wouldn't even come 
close to keeping up with the increase in imports that has 
happened here.
    We have a similar situation in FSIS, although it is not 
quite as pronounced and, at least in the case of FSIS, I think 
they have changed the way they operate in terms of using 
methods that may require fewer employees. How do you respond to 
that lack of additional resources and people to deal with this 
big increase in imports that we have seen?
    Dr. Acheson. I think you asked a lot of questions in there 
and let me try to sort of phrase it around part of it, which is 
directed as 1 percent of imports are being inspected and is 
that enough? What the agency has done is to use a risk-based 
approach to focus inspections based on where the risk lies. We 
would never have the resources to be able to inspect and test 
100 percent of imported food.
    So it is clearly important that we use a risk-based 
strategy and that is what we have done. Over the years, we have 
moved away from testing foods that are considered to be lower 
risk and focused on areas that are higher risk. Food defense is 
a classic example of that, where through the Prior Notice 
Center, we have set up a system which is specifically designed 
to identify and target foods that are considered to be of 
higher risk.
    As I develop this strategic plan with my colleagues at FDA, 
one of the things that we need to do, quite clearly, apart from 
building the scientific infrastructure for the agency, is to 
develop a sound, risk-based strategy that is going to focus 
both on imports and domestic foods to ensure their safety and 
security.
    The Chairman. So how would you do that in China? I mean, 
are you going to go over there and inspect plants like we do 
with USDA, is that what you are considering?
    Dr. Acheson. Well, again, it is not resource feasible, with 
the best will in the world, to get an FDA inspector in every 
manufacturing facility in every part of the world. We have 
approximately 150,000 manufacturers registered as part of our 
registration database throughout the world. That is aside from 
the domestic, that is just foreign. So what we clearly need to 
do is to strategize on how to ensure that what the industry is 
doing and what the countries are doing is maintaining a level 
of food safety and security standard that is acceptable to the 
United States.
    The Chairman. Just one last thing. I had a gentleman in my 
office who claims that he has got some kind of system where 
they can test the molecules and this would have identified the 
spinach problem. Are you familiar with this technology where 
they claim that they can actually find this stuff immediately? 
Do you know anything about that?
    Dr. Acheson. You are referring to melamine or are you 
referring to----
    The Chairman. This is any kind of substance. This gentleman 
claimed that this would be a big help to us in trying to 
identify these problems and apparently he must be having some 
problem getting people to look at it but----Are you aware of 
anything available in the technology area that would help us 
with this?
    Dr. Acheson. One of the reasons that we need and try to 
maintain a sound scientific research infrastructure is to get 
at exactly that. Our scientists and researchers need to stay 
ahead of the curve on the modern technology. They need to 
understand what is up and coming through attending scientific 
meetings, interacting with scientists around the world. We are 
very open to new detection methodologies and in principle, you 
are exactly right, if we could develop a detection method that 
was rapid, sensitive, specific and could be operated at a 
simple level by an inspector in a field situation, that is 
heading towards the perfect type of methodology. But it has got 
to be validated. It has got to be shown to work, so that is all 
part of building and ensuring that this scientific 
infrastructure--because what you are talking about there is the 
basic science components which are the underpinnings for sound 
detection and then response.
    The Chairman. Well, thank you and we will be very much 
interested in monitoring and being informed about your progress 
and hopefully, we will get something going here sooner rather 
than later, so thank you very much.
    Dr. Acheson. Thank you.
    The Chairman. Mr. Goodlatte.
    Mr. Goodlatte. Dr. Petersen, the USDA has made the decision 
not to recall the meat and poultry products from hogs and 
chickens that have been fed this questionable feed, but that 
has already entered commerce and I have listened to your 
statement regarding your analysis of that and your conclusion 
that it is safe. What level of assurance would you give the 
American consumer that these products are safe?
    Dr. Petersen. Thank you for the question. First of all, we 
made that decision after carefully considering the facts and we 
do consider the food supply to be safe. The facts we looked at, 
and I think it is important to understand them, are that on the 
first day, when we made the announcement that we were aware 
that some of the contaminated feed had gone to several swine 
producers, that is about all we knew, that there was some 
exposure to swine and so we took a very cautious approach on 
that day, which was April 26. With that limited set of facts 
and we took the cautious approach of not applying the mark of 
inspection to any of those animals, should they have come to 
slaughter.
    On that day, we were not certain that any of the animals 
had already gone into commerce. It was over the course of the 
next two days, over the course of that weekend, April 28, where 
we did become aware that there were swine that had gone to the 
marketplace. And during that intervening two days, we did get 
some additional facts and they were facts such as the melamine 
is a very small component of the pet food and the pet food is a 
very small----
    Mr. Goodlatte. I don't want you to--I heard your testimony 
and I understand the analysis. What is your level of confidence 
that the decision not to recall the products assures the public 
of the safety of the products?
    Dr. Petersen. Well, we are quite confident now----
    Mr. Goodlatte. Is it a high level of assurance or is it a 
low level of assurance? Is it, I think it is safe? What is your 
level of assurance?
    Dr. Petersen. It is a high level of assurance, particularly 
in light of the human risk assessment that was completed the 
other day.
    Mr. Goodlatte. Great, great. Thank you. Now, my next 
question relates to what I think is the wider public concern 
which is, if this got into our food system from China, then the 
Chinese are not doing a very good job with their own food 
safety. And so I want to know what message the administration 
is sending to the Chinese government that exporting 
contaminated products of any kind to the United States will not 
be tolerated?
    Dr. Petersen. Well, I will start and no doubt my colleague 
from FDA may want to mention their approach. Our message would 
be we are taking this extremely seriously and as we uncover the 
facts, the facts will lead where they lead. But the mere fact 
that this occurred and we are in this position of responding, 
shows we take this quite seriously and we are dealing with it 
through our equivalency system, which is a very rigorous 
approach before any country gets even approved to have the 
possibility of exporting any products to the U.S. China does 
not export meat or poultry products to the U.S. at this time. 
So that is our message as far as the approach with engagement 
on China on this particular issue. I would defer to my 
colleague.
    Mr. Goodlatte. Yes, let me ask Dr. Acheson about that. You 
have put a halt to all vegetable proteins being imported from 
China, is that correct? What are the terms and conditions of 
that halt? Is it contingent upon their making certain changes 
or is that subject to future negotiation? What is the status of 
that?
    Dr. Acheson. Thanks for the question. The status is that, 
as you point out, all vegetable-based protein concentrates 
imported from China are not allowed to enter the United States 
until we, at FDA, have evidence that it is safe to proceed. 
That evidence can be varied. It can be validated testing 
undertaken by the industry. It can be a number of factors. That 
will continue and we will continue to do that until we have 
assurance from a particular importer working with the Chinese 
authorities, AQSIQ, to ensure that the products that are being 
imported into the United States are, indeed, safe.
    Mr. Goodlatte. But at this stage in the investigation, do 
you have confidence that the Chinese government's food safety 
system is sufficient to assure U.S. consumers that Chinese 
products are safe for export?
    Dr. Acheson. At this point, that is part of what we are 
trying to seek. We are working very closely with AQSIQ on this. 
With regard specifically to the melamine, the Chinese 
authorities have made changes since this has occurred, with 
regard to making sure that all imports or exports from China to 
the United States and other parts of the world, I believe, go 
through AQSIQ to ensure that safety. Our team is over in China 
right now, working very closely with AQSIQ. The job is not 
done. We need to continue to work with AQSIQ and the Chinese 
authorities to further ensure the safety of imported food from 
China.
    Mr. Goodlatte. Thank you. The chairman has given me leave 
to ask you another question to follow up on that. The U.S. 
Department of Agriculture established equivalency agreements 
with nations that export meat and poultry products to the 
United States to ensure that the exporting country is meeting 
our food safety standards. Does the FDA have the capability of 
using a similar approach?
    Dr. Acheson. In theory, yes. FDA does have the capability 
of using equivalence, in theory. But I would like to point out 
that for FDA, the situation is significantly more complex than 
for USDA. We are having to deal with multiple products. It is 
not just meat, poultry and egg products. There is a huge 
spectrum of products that are under the control of a vast array 
of agencies, very often in different countries. I think, as we 
go down this road, an equivalence-type thinking or an 
equivalence-type approach is one aspect of what could be in the 
toolbox that we can use to ensure that imported goods, not just 
from China but from all parts of the world, are safe and 
secure.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman. I recognize the 
gentleman from Pennsylvania, Mr. Holden.
    Mr. Holden. Thank you, Mr. Chairman. Dr. Acheson, I realize 
you have limited resources, but I have a few questions about 
dairy imports and particularly on India. I understand that the 
imports from India are averaging about $47 million over the 
last 3 years and their level of pesticide approval is much 
higher than that of the U.S. I am just wondering what specific 
steps are you taking to monitor imports from India? It has come 
to my attention that the domestic dairy industry brought this 
to FDA's attention, but there has not even been any sampling 
that has been done so far.
    Dr. Acheson. There is an ongoing pesticide testing program 
in FDA. It is part of the total diet study and part of a 
separate assignment that we have, looking for pesticides. 
Frequently, when we find them, we issue import alerts and we 
have a number in place right now related to pesticides. I don't 
have specific facts on numbers of tests of pesticides related 
to imports of dairy products from India at my fingertips today. 
I would be happy to get those for the record.
    Mr. Holden. If you get them, Doctor, I would appreciate it.
    Dr. Acheson. Sure. I would be happy to do that.
    Mr. Holden. Okay. And second, Doctor, I understand that the 
FDA is trying to accelerate Grade A importation of dairy 
products through third party verification, is that true?
    Dr. Acheson. With regard to dairy products, I know that FDA 
is working closely with a number of other countries to try to 
ensure that there is importation of safe and secure dairy 
products into the United States. Again, if you want specifics 
on the current status of that discussion, I would be happy to 
provide that for the record.
    Mr. Holden. I would appreciate that, Doctor, and again, I 
realize that you have limited resources and you are looking for 
ways to crunch the dollars, but I would be concerned about the 
integrity of third party inspections and so if you could get 
that information to me, I would appreciate it.
    Dr. Acheson. Thank you. I understand.
    Mr. Holden. I yield back, Mr. Chairman.
    The Chairman. Thank the gentleman. Gentleman from Texas, 
Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. I agree with the 
chairman in that we don't need to create any new bureaucracy 
here. We need to make sure that we have food safety in our 
country. I think one of the things I want to follow up on is 
that other countries have been very punitive on the U.S. when 
there has been a question about the quality and the health 
safety of our products. For example, Japan with American beef. 
Are we taking a hard line with China for example, right now to 
make sure that they understand that if we can't satisfy 
ourselves that we are getting safe food products from them, 
then that could have some long-term ramifications?
    Dr. Acheson. Is that question directed to me?
    Mr. Neugebauer. Both of you.
    Dr. Acheson. Okay. Well, let me start out. First of all, I 
want to say that our focus is not solely on China with regard 
to imported foods. We cannot ignore the rest of the world. But 
right now, that is the current focus, on China. But whatever 
strategies we put in place have to be applicable globally and, 
as I said in my statement, we have got an increasingly global 
food supply and I suspect it is only going to get more global 
and diverse as time continues.
    We do already have systems in place so that when 
situations, or problems, are identified, we can put import 
alerts out there which essentially stop something from coming 
into the country. That can be done in a very focused way and 
the melamine situation is an example of that. We started that, 
as an import alert, on the two companies from China that we 
knew for sure were problematic. As we learned more about this 
situation as it unfolded, we expanded that to include all 
vegetable protein concentrates. In theory, I believe, we could 
keep expanding it based on what we find, so we can, basically, 
put things in place that will stop the problem.
    But I think the key question is how do you get one step 
further back? How do you deal with the preventative strategies 
in the country itself? Because the overall approach needs to be 
prevention Number 1, which needs to involve all stakeholders. 
It needs to involve industry participation, understanding 
suppliers. Where do you get your material from? What do you 
know about your supplier? And that is something we have worked 
with the industry on very closely with regard to food defense, 
raising awareness about your supplier through our alert 
program.
    Then the other piece is how do you apply that, locally, 
into a country going globally? And that is part of the strategy 
that has to be figured out. And clearly, we need to make some 
changes.
    Mr. Neugebauer. I appreciate that. Mr. Petersen, as you 
know, we were put through a fairly rigorous process by the 
Japanese on our monitoring process so that they could rely it 
when we said U.S. beef was safe and that we have safety 
measures in place. I agree with you. It is the preventative 
side. We don't need to wait until animals start dying or God 
forbid, people start dying or having health issues to determine 
how we need to monitor that. So what are we doing, then, on a 
proactive basis, of putting a lot of pressure on these various 
countries of saying that they are going to have to demonstrate 
to us that they have a process in place that we can rely on to 
ensure the product is safe when they allow that product out of 
their country and it is coming into our country?
    Dr. Acheson. Well, again, to take the micro example of 
melamine, we have that in place through the import alert. We 
will not allow importation or take people off that import alert 
until we have assurances from the country that product is safe. 
And again, it is broader than that. I think, possibly, one way 
to take that question is, which will be part of my analysis, 
strategically as we move forward, is do we need new 
authorities? Do we need to tweak current authorities to make 
sure that we meet that goal of prevention and ensuring 
prevention and pushing it back onto the countries who want to 
import food into the United States and the industries that want 
to do that. Because there is no way in the world we would ever 
get an FDA inspector in every manufacturing facility throughout 
the world. We just couldn't do it. And I don't think we should.
    Mr. Neugebauer. Does that also include some kind of 
verification of types of chemicals that are being used on 
agricultural products in those countries? Because one of the 
things I hear from fruit and vegetable people is that some of 
the vegetables and fruit that may be coming into our country, 
in fact, have chemicals being used in those countries that are 
prohibited in the U.S.?
    Dr. Acheson. It happens and that is why we have monitoring 
systems in place, to try to pick that up. The worse case is 
when you get human illness. That is the point at which you have 
got to respond, or animal illness. And then you backtrack and 
you figure out okay, we have got a problem. Our goal is to 
never get to that point and as I said, push it back on 
prevention; make sure that there is something in place that 
would prevent a product coming in which has been exposed to a 
pesticide which we don't consider safe. Then on top of that, 
there has got to be an intervention, inspectional testing, 
detection level to basically trust and verify in terms of the 
prevention. But there has got to be enough teeth in this to 
make sure that the rest of the world will pay attention to our 
standards.
    Mr. Neugebauer. After you have had a chance to analyze 
that, do you anticipate bringing something to this committee? 
If you need additional authority, do you think that is going to 
be necessary that legislatively? Do we need to look at some 
ways to give your agency broader powers to be able to interact 
in that way?
    Dr. Acheson. I would be happy to come back and report to 
you once we have made that assessment. Part of where we are 
trying to go strategically is to look at exactly those 
questions. And I want to phrase that in two ways; one is 
tweaking current authorities and the other is seeking new 
authorities. Frankly, we are not there yet, in terms of what 
that would look like, but I would be happy to report back to 
this committee once we have reached that point.
    Mr. Neugebauer. Thank you.
    The Chairman. Thank the gentleman. The gentleman from North 
Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I think it is important. Gentlemen, let 
me quickly go to some questions. My first is for both of you. 
Frankly, this entire incident is troubling. I think this will 
remind people of the importance of our nation not being totally 
reliant on foreign sources of food. We have said many times 
that our food supply here in the United States is the safest 
and most abundant in the world and I hope this incident will 
sound something of a clear call for more diligent food 
inspection, as well as better lines of communication when an 
incident occurs.
    I believe the lag time between when these animals first 
started dying and the official disclosure of tainted feed going 
to the farm, was entirely too long. My understanding is that we 
first knew about it in February. It took a month for anyone to 
acknowledge it. So my question is this, wheat gluten and some 
of the other products that have been put on hold and the test 
lists such as ryes and corn gluten go into far more products 
than pet food. Can either of you tell me within a degree of 
certainty that this product has not entered into the human food 
supply chain?
    Dr. Acheson. Let me first respond to that.
    Mr. Etheridge. Yes or no?
    Dr. Acheson. Yes, I can give you assurance that the wheat 
gluten and the rice protein concentrate that we now know was 
wheat flour that was used to make the contaminated pet food, 
has not, to date, to our awareness, entered the food supply 
chain. I want to also emphasize, though, that this is an 
ongoing investigation and I cannot predict where it is going to 
go. That is part of what we need to do, is to continue to trace 
out the tentacles. And I also want to point out, in that 
context, that we----
    Mr. Etheridge. I have a very limited amount of time and you 
have answered that one, so I don't want to take all my time 
filibustering.
    Dr. Petersen. FDA, would of course, have the lead on how 
the contamination is moving on the wheat protein side of the 
spectrum. Everything we have seen as far as their investigation 
supports the statement that was just made. There is no direct 
information that we have seen that supports that it went into 
the human chain directly.
    Mr. Etheridge. All right. Thank you. USDA and FDA have both 
issued press releases that state that the risk to human health 
is very low. What does very low mean? And the reason I ask this 
question, I have a grandson who is two and a half years old and 
weighs about 27 pounds. How does that compare, that child, to 
say, a grown adult weighing 200 pounds? How does that compare? 
When you say very low, I think the American people want to know 
what does very low really mean?
    Dr. Acheson. Based on the risk assessment, one of the 
things that we look for is what is the margin of safety, as it 
is called, between the level that we see in the food and the 
level which we might expect anybody, infant or whatever, on a 
per kilogram basis, of body weight, to have a problem. And that 
risk assessment, worse case indicated that there was about a 
2500-fold margin of safety between the level that we were 
seeing in the meat and the likelihood of an illness.
    Mr. Etheridge. Do you agree?
    Dr. Petersen. Yes, we worked jointly on the risk assessment 
and that was using the most extreme assumptions that could 
theoretically happen, but are not expected to happen in the 
real world. A 2500-fold margin of safety is rather large.
    Mr. Etheridge. See, the reason I ask this, it is troubling 
because if you go back to the question the Chairman asked 
earlier, at the percentage of increase of feedstock coming into 
this country since 1996, with the reduction in the amount of 
inspections in that period of time, this is the first time it 
has shown up and it didn't show up until we had a death that we 
recognized in animals. I think I am understanding you now.
    We really don't know what else is out there and yet, we 
have increased the amount of imports substantially with a 
reduction in the amount of inspections. So my next question is 
this, is it true that Menu Foods, the first company to notify 
USDA that there was a problem, first discovered the problem at 
the end of February? And why was the first hold on these 
imported products put in place, it took a month to take the 
action to put it in place, to put a hold on the imports?
    Dr. Acheson. The hold on the import was, as I said earlier, 
expanded from the companies that we first identified and once 
we had identified who the company was, what the problem was, 
the hold was put in place and that has expanded now. Part of 
what you are getting at is the need for, in terms of response, 
is what do we need within the system to be able to get a handle 
on an illness, whether it be human or animal, earlier? And that 
is public health infrastructure, to get to where we can take 
action faster.
    Mr. Etheridge. I hope you will share back with us that 
need. My final question, with the Chairman's indulgence, I have 
a stack of material I have been reading and obviously, a lot of 
it is from newspapers, the Washington Post, the New York Times, 
with the latest one out this morning about the number of the 
pigs that are dying in southeast China by the thousands, 
outside Hong Kong. And they started dying the first of the 
year. Have you had any input on that, any response with USDA or 
FDA? Because the question is that it is about the same time the 
tainted food started showing up.
    Dr. Petersen. We don't have any direct information on that, 
but another agency within USDA, the Animal and Plant Health 
Inspection Service, remains vigilant on any animal diseases 
that could come into this country and so even if we were to 
receive product from that part of the world, which I am not 
aware that we do, their animal protection measures would 
immediately come into play with their is animal disease 
surveillance networks.
    Mr. Etheridge. The reason I follow that up is because it is 
from the region of China where SARS was, which refused to issue 
information then. Now we have got the same problem and I would 
hope you would follow that up and I would appreciate a response 
back to the committee on that.
    Dr. Petersen. For equivalency with meat and poultry, if we 
have a country that is equivalent, if an issue arises where 
there is some animal disease that occurs, we can suspend any 
exports until that issue is mitigated and we have done so in 
the past.
    Mr. Etheridge. Are you telling me we have no equivalency 
with China?
    Dr. Petersen. On China for equivalency on the meat and 
poultry side, it is strictly related to cooked product and they 
are not bringing any into this country at this time. It must be 
cooked, because that was the determination made by the Animal 
and Plant Health Inspection Service, that it needed to be 
cooked before it came in, so they are eligible, but nothing is 
coming in.
    Mr. Etheridge. Okay. I would like to follow it up later, 
Mr. Chairman.
    The Chairman. Thank the gentleman. Gentleman from 
Louisiana, Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your thoughtful testimony. First question, given 
that the investigation is still ongoing, are the Chinese 
cooperating?
    Dr. Acheson. Very much so, yes.
    Mr. Boustany. So you are satisfied with the level of 
cooperation?
    Dr. Acheson. Yes, AQSIQ has been very helpful. As you are 
probably aware, when our investigators first went over there, 
there was a holiday in China. They basically came in from their 
vacations to support us and assist us in the investigation.
    Mr. Boustany. Thank you. Dr. Acheson. I appreciate your 
strategic approach to this, because obviously, it would be very 
impracticable and costly to provide inspectors across the board 
for 100 percent inspection, so the strategic approach that you 
outlined was good. I am curious to know whether or not there is 
a very vigorous, broad interagency process involved in this 
strategic planning. In other words, beyond the two agencies 
represented here today, is the State Department, our 
intelligence community involved in this? Department of Defense, 
perhaps? Commerce, Treasury, involved in looking at formulating 
a very strong and vigorous strategic approach to this problem? 
There are many, many ramifications, obviously, but if you could 
give me a straightforward answer on that, I would appreciate 
it.
    Dr. Acheson. At this stage, no. It is early days, but 
clearly, this goes beyond just FDA and it involves many of the 
agencies that you have just outlined and there is going to be a 
need to interact with them, share the information with them, 
share the approach with them, get their support and get their 
help to put it in place.
    Mr. Boustany. I would submit that if you need a push from 
Congress, I would certainly be willing to work with you on that 
issue. I think, clearly, it is going to require a vigorous and 
broad interagency approach to deal with this problem, because 
you outlined the challenges very succinctly with globalization, 
terrorism, the rapidity of change in production and so forth, 
and to deal with those kinds of challenges, I think clearly a 
broad approach is going to be necessary. One final question, 
what has been the budgetary impact of this particular 
investigation? And could both of you comment on ongoing 
budgetary needs as we look forward to dealing with these kinds 
of problems and particularly, with regard to enhancing your 
research capabilities?
    Dr. Acheson. Well, as I have said, there is a need to 
ensure the infrastructure is there. There needs to be a strong 
science base behind the decisions. We use science on a daily 
basis. The risk assessment is a classic example of that, which 
to get to your earlier question, involved multiple agencies. We 
brought all of those folk in there and in fact, every day we 
have a call at 9:30 that involves many of the players that you 
asked me about.
    In terms of resources, though, specifically, we have got to 
determine what we need to get that job done in terms of the 
infrastructure. It is not just research and science, it needs 
information technology infrastructure, as well. A lot of what 
we have got to do is data handling, data analysis, vast amounts 
of information. If we are going to make this work, we have got 
to use modern IT to drive it, as opposed to old-fashioned piles 
of paper and pencils.
    Mr. Boustany. And I trust you will come back to us with a 
more detailed assessment of what those needs will be as time 
goes forward. But what has been the budgetary impact to your 
respective agencies with regard to this particular 
investigation? Could you comment on that? Could either of you 
comment?
    Dr. Petersen. For FSIS, we are appropriated to do a certain 
number of investigations of some nature because we know various 
investigatory needs are going to come up during the year. 
Approximately to date, and we have been involved for the last 
several weeks now, about a thousand man hours have been 
employed with the associated travel costs, so that is well 
within our system and so at this point, we are able to deal 
with the situation.
    Mr. Boustany. Thank you. I see that my time is about up. 
Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank the gentleman. The gentleman from Iowa, 
Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I would like to kind 
of pick up on what Mr. Holden was talking about on the dairy 
situation, Dr. Acheson. I appreciate what you have said, so I 
will try not to repeat that, but do I understand that you are 
trying to accelerate the dairy products from several countries 
by giving testing and verification to third parties? Is that 
correct?
    Dr. Acheson. I am not intimately familiar with the current 
status of those interactions with regard to dairy products. I 
didn't come to this hearing prepared to address that in depth.
    Mr. Boswell. I understand, but it does kind of fit into 
what we are discussing here, so would you give us that 
information?
    Dr. Acheson. I would be happy to and I apologize that I 
don't have it today.
    Mr. Boswell. No, that is okay. We would like to know. And I 
am not sure, if I could, how do you plan to ensure a third 
party in a country with corruption problems can meet all the 
guidelines? And I say that because, to use the example that Mr. 
Holden did, the Indian standards for levels of pesticide are 
higher than the U.S. and I would like, as you report back to 
us, if you would, that you give us an indication of what kind 
of a sampling you have done over the last six months, to give 
us a feel for just what is actually going on there, 
understanding that you didn't come prepared for that today, but 
would you give that information to us?
    Dr. Acheson. I would be happy to do that.
    Mr. Boswell. Okay. Well, I think that would add on to what 
Mr. Holden has already requested, say I appreciate it, and I 
yield back.
    The Chairman. Thank the gentleman. Let us see here. The 
gentlelady from Colorado.
    Ms. Musgrave. Mr. Chairman, I apologize for not being here 
earlier and I will pass on the questions. Thank you.
    The Chairman. Okay. I thank the gentlelady. The gentleman 
from Georgia, Mr. Scott. You are on the list.
    Mr. Scott. Thank you, Mr. Chairman. I think that what this 
hearing points out, and this issue with China points out, is 
that our food safety protection operation is dangerously 
inadequate. I think there should be a greater sense of urgency 
than what I am hearing from you gentlemen today. There was a 
motion picture that came out a while back and it was called, 
Outbreak. I think that was the name of it. Dustin Hoffman was 
in this movie. And it had to do with this monkey who came into 
this country and caused an outbreak.
    My concern is two-fold. Here we have got China, that you 
seem to think has it under control now. But this isn't the 
first time. China is notorious for contaminated food products. 
We have had all kinds of history, news reports, on its honey, 
for example; on its catfish, for example. So it is repeat after 
repeat. My fundamental question to you, first of all, is can 
China be trusted to deal with this problem or in fact, do you 
and FDA need new authority to deal with it?
    Dr. Acheson. First of all, to answer your specific 
question, I think we have to approach this in the context of 
trust and verifying. We have got to set up systems where we 
have to push back on manufacturers, importers, wherever they 
be, to put sound, safe systems in place to ensure the safety, 
yet we have to verify and inspect to make sure that they meet 
that standard. With regard to your comment of urgency, I can 
assure you, there is a great deal of urgency about this. One of 
the reasons that my position was created, just a week ago, was 
a reflection in FDA of that urgency and the need to take a new, 
strategic approach to determine what needs to be done to 
further protect the American food supply.
    Mr. Scott. Here is what concerned me, and why I say I don't 
think you are urgent enough. In your reference to a question 
from one of my previous colleagues who asked you has this 
outbreak from the pet food gotten into our food supplies, 
threatening our food supply. You said no, when in fact, 
according to reports, the contaminant has made it into our 
human food supply when scraps from pet food production were fed 
to hogs and chickens in the United States. Now, Mr. Acheson, 
those hogs and chickens are going to make it onto somebody's 
table and whether or not we know exactly where those hogs are 
and which those hogs are.
    Dr. Acheson. Let me clarify that statement so that you 
understand where I was coming from with that. My answer to that 
statement and perhaps it was my misunderstanding of the 
question, was whether the wheat gluten and rice protein 
concentrate had been used directly as an ingredient in a human 
food and to date, we have found no hard evidence to support 
that. You are absolutely correct, and we have said in many 
press releases, that it has gone, via the pet food, into the 
animal feed, there is no question about that.
    Mr. Scott. Okay. Do you feel our food supply is safe?
    Dr. Acheson. I feel that our food supply is one of the 
safest in the world. My mission is to make it safer and more 
secure.
    Mr. Scott. Right now we are getting about 14 percent of our 
food that we consume in this country from other countries and I 
think you alluded to the fact that percentage is going to 
increase in the future. Do you see a threat there? Do you see a 
need for us to do one of two things, either begin to put up 
other safety and soundness measures to protect us or do you see 
a greater need for us to become more independent and less 
dependent on foreign sources for our food and begin to put more 
things in place to produce more of our own foodstuff in this 
country? For example, what I am saying, about 90 percent of the 
tomatoes, for example, are brought in to this country. That is 
a huge percentage.
    Dr. Acheson. Part of the complexities of this is the 
consumer demand for all kinds of food 24/7, 365 days a year, 
which puts a lot of pressure on American agriculture to provide 
that and that is a big part of what is driving the importation 
of food. It is consumer demand for readily available, lots of 
types, inexpensive, year round. That is a fact and short of 
changing consumer behavior, that isn't going to change. So we 
have got to accept that as the fact. Now, clearly your point as 
to whether we could grow more domestically, that is a separate 
issue and I am certainly not opposed to that in any way, shape 
or form. We have to accept the fact that we have got this 
global food supply and what are we going to do to protect the 
American consumer from not just imported foods, but clearly, 
within the last few months, we have had concerns with 
domestically grown fresh produce, as well as peanut butter, 
amongst other things. So this approach shouldn't just focus on 
imports, it needs to encompass both.
    Mr. Scott. Thank you very much for your answers. I 
appreciate it very much. I yield back the balance of my time.
    The Chairman. Thank the gentleman. The gentleman from North 
Dakota, Mr. Pomeroy.
    Mr. Pomeroy. Thank you, Mr. Chairman. As I understand it, 
then, when the pets started dying, the investigation was 
triggered and the two agencies working together and as you 
indicated in your testimony, did some very good work to retrace 
back the problems causing the illnesses in the pets consuming 
this tainted pet food. But it was the illnesses and the deaths 
of these animals that caused the investigation to begin, is 
that correct?
    Dr. Acheson. That is correct.
    Mr. Pomeroy. Now, obviously we are talking about matters 
related to the Nation's food supply; that is a little late. We 
want something a little more proactive than when the pets start 
dying. So let us talk about that one. I saw some film footage 
on television, it was a big old factory where they were putting 
melamine in as a substitute for wheat gluten because it was 
cheaper, has no nutritional value and indeed, has very adverse 
health consequences to these animals. Were you surprised at the 
commercial scale by which this product was being put into this 
commercial pet food as basically a cost savings technique, yet 
resulting in tainted food?
    Dr. Acheson. Well, clearly FDA was not aware that this was 
going on, otherwise we would have been more preventive and 
proactive.
    Mr. Pomeroy. Do you have a capacity, people on the ground 
over there running around looking at these places where the 
food is manufactured?
    Dr. Acheson. Well, as I said, we currently do not have the 
resources and the manpower to get an FDA inspector----
    Mr. Pomeroy. How about the U.S. Department of Agriculture?
    Dr. Petersen. The pet food issue is not directly under our 
jurisdiction, so it is when those animals come to slaughter 
that FSIS becomes directly involved.
    Mr. Pomeroy. Now, that is a good point because probably 
this technique of adulterating food supply fed to animals, also 
available to domestic livestock and such in China. Do we have 
food imported from China?
    Dr. Petersen. We have food imported, but at this point, 
there is no meat or poultry that is imported, although China is 
eligible to export cooked poultry, provided the poultry comes 
from a country eligible to export raw poultry to the U.S.
    Mr. Pomeroy. How about fish?
    Dr. Acheson. FDA regulates fish and the answer is yes.
    Mr. Pomeroy. I understand, a couple of States, Alabama and 
Mississippi, have actually taken steps to stop the import of 
Chinese catfish in light of concerns that these fish may have 
been fed tainted food supply over in China.
    Dr. Acheson. That is correct. We have had concerns about 
catfish particularly being contaminated with antibiotics and 
other fish products contaminated with a fungicide, malachite 
green. We at FDA have been working with those states to 
implement a testing program.
    Mr. Pomeroy. Are there Chinese catfish coming into other 
states?
    Dr. Acheson. Yes, I am sure there are.
    Mr. Pomeroy. Well, who is right in that one? Are Alabama 
and Mississippi right or are the other states lax? Should there 
be a national response?
    Dr. Acheson. What we have done is put an import alert out 
for eel in relation to malachite green.
    Mr. Pomeroy. If there is an evolving state of play relative 
to regulations and some states have one thing, some states have 
done nothing; FDA is looking at it, thinking about it. Do you 
think it would be helpful to have a label so at least consumers 
would know what is U.S. catfish, what is China catfish?
    Dr. Acheson. I would ask my colleague, Steve Solomon, to 
answer your question.
    Mr. Pomeroy. Why can't you answer it?
    Dr. Acheson. That is why I brought some other experts from 
our Office of Regulatory Affairs along, because I think your 
question is what is the current regulation.
    Mr. Pomeroy. My question is what do you think about 
consumers having notice of where their food comes from? What do 
you think about that?
    Dr. Acheson. Personally, I think the more information the 
consumer has to make informed choices, the better.
    Mr. Pomeroy. I think so, too. What does U.S. Department of 
Agriculture think about that?
    Dr. Petersen. Well, of course, we regulate the labeling of 
meat and poultry and eggs products and our view is that the 
current labeling system is sufficient to inform the consumer.
    Mr. Pomeroy. Now, does the current labeling system, sir, 
allow a person to find out what country their food comes from, 
where the steak comes from?
    Dr. Petersen. Well, what it does have----
    Mr. Pomeroy. No, wait a minute. I have got about 30 seconds 
left. I would like you to answer my question. Does the current 
system you think so highly of, allow a consumer looking at a 
grocery store shelf, to find out where their food comes from?
    Dr. Petersen. Well, for meat and poultry products, what it 
will show is for domestically slaughtered animals it will have 
the USDA mark of inspection on it, which means that we 
inspected it before it went into commerce and we think that is 
sufficient for those products.
    Mr. Pomeroy. Is this a little code? Is this a little code 
that consumers got to know? There is a little label that says 
USDA Inspected and that means ah, that was an Iowa steak, not a 
Chinese steak, or they don't come in from China so it's not a 
Canadian steak. Is that it?
    Dr. Petersen. It means that their Federal tax dollars 
inspected that product and found it to be safe and wholesome.
    Mr. Pomeroy. Where does it say, sir, this is a U.S. 
product, not a foreign product? Where does it say that?
    Dr. Petersen. It would say, on a little inspection label, 
U.S. Department of Agriculture inspected and passed for meat 
and poultry products.
    Mr. Pomeroy. And so you have got to look for that U.S. 
inspected sticker and then understand, as a consumer, that 
Canadian steaks don't have that sticker on there, is that 
right?
    Dr. Petersen. Yes, and it is required----
    Mr. Pomeroy. Wouldn't it just be a whole lot clearer to say 
Canadian steak, U.S. steak, wherever steak? What is the matter 
with that?
    Dr. Petersen. That is the system we have. We think it 
informs the public. It has been out there for a hundred years 
and it is available for them to view.
    Mr. Pomeroy. Well, I buy steaks. I don't even know what 
sticker you are talking about. I can't tell if they are U.S., I 
can't tell if they are Canadian, I can't tell where they are 
from. I think we can do a heck of a lot better than what we 
have got now. In fact, I believe Congress has passed a 
directive in the last Farm Bill saying we would label where the 
meat comes from and the U.S. Department of Agriculture has done 
its very best to delay implementing this country of origin 
specificity. It continues to be, even in light of this 
incident, showing clearly that we don't have a handle on the 
quality of food coming into this country from other places. 
Even now you take the position of U.S. Department of 
Agriculture that consumers should not have clear labeling so 
they know where their food comes from?
    Dr. Petersen. The status of where we are vis-a-vis the farm 
bill and the country of origin labeling, I will simply have to 
get back to you with the response from the department.
    Mr. Pomeroy. I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman and I just would note, 
as far as I understand, there is boxed beef from Canada that is 
slaughtered in Canada that gets the USDA stamp. So there are 
situations where you have got product that is from another 
country, slaughtered in another country that has the USDA 
stamp.
    Dr. Petersen. Yes, when they are fabricated in a federal 
establishment.
    The Chairman. Yes. I just put that out there. Gentleman 
from Wisconsin, Mr. Kagen.
    Mr. Kagen. Thank you, Mr. Chairman, for having this 
hearing. I really appreciate it. I have learned a great deal. 
But it wasn't clear, Dr. Acheson, have you practiced medicine, 
as well?
    Dr. Acheson. Yes, I have.
    Mr. Kagen. So you understand what it is like to write a 
prescription and have a patient fill it, and on the label of 
that prescription it says the name of the medication and its 
expiration date and the manufacturer?
    Dr. Acheson. Yes, indeed.
    Mr. Kagen. Wouldn't you like to see the same thing with the 
food that you buy and your family purchases and people across 
America?
    Dr. Acheson. I think that is a complex answer. We know, 
from consumer surveys, that most American consumers do not read 
labels.
    Mr. Kagen. That may be true, but what people really want, 
not just in this room, but across the country, people want 
reassurance that the food they are eating is safe and it won't 
harm them. The USDA has some interesting statistics that in the 
year 2000, over 1200 people died from food borne illnesses: 499 
died from listeria; 553 from salmonella; 99 from campylobacter. 
You are aware of these numbers?
    Dr. Acheson. Yes.
    Mr. Kagen. So food is good for you. But it is healthy food 
that keeps people healthy, so along those lines, what have you 
got in place now to survey the many foods that we have coming 
into the country for the safety of these foods for human 
consumption, because as I understand it, only about 0.7 percent 
of the imported food is now being inspected. Bearing in mind 
that it was February of 2006 when we became a net importer of 
food, what systems do you have in place now to reassure the 
American public that the food that they are eating is safe?
    Dr. Acheson. Well, as I said earlier, the current systems 
are based on where we see the risk, both in terms of the 
products that are of greater concern and the agents, the 
pathogens or the chemicals or the pesticides that are of 
greater concern. That is what the focus is at the border, in 
terms of what you put the energies into. If we see a problem 
with a particular food, we will concentrate on it. An example 
recently was cantaloupes from Mexico. We had some problems 
before with salmonella. We continued to test them, they were 
fine for several years. Then, just recently, several months 
ago, there was a problem again. We picked it up. So that is 
what I mean by it is a risk-based strategy.
    Mr. Kagen. Well, I would like to know that the medicines my 
patients put in their mouths are safe. I would like to know 
that the food that mothers put into their children's mouths is 
safe, as well, and along those lines, I have been very 
outspoken in being an advocate for country of origin labeling 
and maybe we can get to that at another time. Would you agree 
that it might be time for people in this country to begin to 
think about the idea of eating locally grown foods? Would you 
agree with that concept?
    Dr. Acheson. I am all about people eating safe and secure 
food, whether it is grown locally or 5,000 miles away is moot 
so long as we can ensure the safety of it.
    Mr. Kagen. Well, can you reassure me that any milk products 
or milk protein concentrates coming from India or elsewhere are 
free of any pesticides? Have you done any tests? Has anyone 
surveyed it?
    Dr. Acheson. As I said, there are assignments that are 
underway, looking for pesticide residues from various places, 
but I don't have the specific numbers in terms of how much we 
are doing. But in that context, I would point out that you can 
get illness from local problems just as you can from global, so 
whatever strategies you put in place, it needs to apply to the 
farm down to the street as well as the farm in another country.
    Mr. Kagen. Well, along those lines, perhaps instead of 
repeating a phrase from a former Republican president about 
trust but verify, perhaps a better phrase is a more ancient one 
and that is caveat emptor and buyer beware. So you are working 
closely with the FSIS, is that correct?
    Dr. Acheson. Absolutely, yes.
    Mr. Kagen. And what further plans have you got to wrap up 
the melamine investigation?
    Dr. Acheson. We are working very closely with the hog and 
poultry issue, primarily, with FSIS. Multiple calls every day, 
right through the weekend, as this moves forward and that is 
continuing and it will continue until that part of the melamine 
investigation is completed.
    Mr. Kagen. Have you looked system-wide at the FSIS, USDA 
and FDA to determine if your budgets are adequate to meet these 
needs?
    Dr. Acheson. I certainly have not looked at USDA's budget, 
but as I have said, part of the strategic approach that we need 
to undertake at FDA, for which I have been given leadership, is 
to ask that very question. Where are we strategically? Where do 
we want to go with prevention, intervention and response? What 
resources do we need to get there?
    Mr. Kagen. I look forward to working with you in the 110th 
Congress to reassure the public that the food they are eating 
is safe and especially, as I am going to be looking at the 
nutritional needs of children for lunch programs and breakfast 
programs on our subcommittees. Thank you for your testimony and 
I yield back my time.
    The Chairman. Thank the gentleman. The gentleman from 
Indiana, Mr. Donnelly.
    Mr. Donnelly. Thank you, Mr. Chairman. In regards to food 
products coming in from China, such as fish products, what 
inspection has been done to determine what foods were used to 
feed those fish in China?
    Dr. Acheson. At this point, we don't have the resources to 
determine what those fish have been fed. When the melamine 
situation arose, we did not have an assay, a method to detect 
melamine in fish. In the last couple of weeks, our scientists 
have developed one, they validated it and it is now in place in 
our labs.
    As we were discussing earlier, we are already obtaining 
samples, looking for fluoroquinolones and other residues in 
fish and those same fish are now going to be tested for 
melamine and melamine related compounds when we have those 
assays. Right now it is just melamine, to get the beginnings of 
a surveillance assignment for fish. Now, once we have done 
that, that is going to give us an idea of what we are dealing 
with and we are going to have to then react appropriately to 
that. But we couldn't get the resources, the individuals into 
every fish farm in China.
    Mr. Donnelly. For fish products coming to this country now 
that are coming in, we don't know what they have been fed and 
they are still going into the supermarkets. Would that be a 
fair statement?
    Dr. Acheson. That is correct.
    Mr. Donnelly. So these fish products that are coming into 
our supermarkets now, there could well be melamine in those 
fish?
    Dr. Acheson. We cannot rule it out. That is part of what 
the assignment will tell us.
    Mr. Donnelly. Well, let me ask you this. In so many cases, 
other countries are so quick to ban our food products and shut 
the door on our food products. Why do we continue to let these 
products come into our country when this possibility exists?
    Dr. Acheson. Clearly, in order to, as I understand it with 
our current authorities, we have to demonstrate there is a 
problem. Your questioning has gone down the line of we believe 
or speculate there could be a problem with fish. We don't have 
any evidence of that at this point.
    Mr. Donnelly. Did you happen to see the article in the New 
York Times that discussed how animal feed producers have used 
this ingredient with fish farms time after time after time in 
China?
    Dr. Acheson. Understood. And clearly, if we reacted to 
everything that we read in the New York Times in terms of what 
we did, we would be in trouble.
    Mr. Donnelly. I am not using just the Times. I am using the 
fact that we found hogs and poultry in this country. I mean, at 
what time do we put the benefit of the doubt on behalf of the 
consumer where this product is coming in, instead of trying to 
cover these things over? When do we stand up for our consumers? 
As Mr. Etheridge was mentioning, his 27-pound grandchild might 
be eating this fish tonight. How do we let this continue?
    Dr. Acheson. Without some specific evidence that there is a 
problem with it, we don't have the authority to ban it based on 
the sorts of information that you are describing to me.
    Mr. Donnelly. Well, then that brings me to my next 
question, which is are we finding out who in China knew? How 
are we tracing back the steps? Have we found the different 
facilities? Obviously, we have located some of them, but have 
we found if any government officials in China knew, and who 
have we talked to on the government level?
    Dr. Acheson. We are working very closely with the Chinese 
food safety authority, AQSIQ, on this whole issue around 
melamine. Clearly, they are aware of this problem. We have 
assisted them in setting up assays to measure melamine, which 
they didn't previously have. I think you are asking a very good 
question. At this stage of the investigation, we just simply 
don't have all the answers.
    Mr. Donnelly. So we don't have the answers, but the 
products keep coming in at this point.
    Dr. Acheson. They are coming in, they are being tested and 
if they test positive, clearly, we are not going to ignore that 
and we will take appropriate action, which could potentially, 
at the far end of the spectrum, be an import alert on fish.
    Mr. Donnelly. Okay.
    Dr. Acheson. But we are not there yet.
    Mr. Donnelly. But at this time, these products are still 
landing in Seattle or somewhere else and being distributed?
    Dr. Acheson. Correct. At this point, we do not have the 
authority to prevent that.
    Mr. Donnelly. Do you have a list of your most likely 
potential problems other than melamine? Do you have an active 
list of scenarios of what areas we are concerned about?
    Dr. Acheson. Absolutely. Both on a food safety front and a 
food defense front, we have created risk-based lists in terms 
of what pathogen or chemical or radiological agent might be 
intentionally or unintentionally put in a food product, what 
type of food might it go into, and this is particularly true of 
food defense, where we have applied this very assiduously.
    Mr. Donnelly. Was melamine on any of these lists?
    Dr. Acheson. It wasn't.
    Mr. Donnelly. Okay. Could you share those lists with the 
Chairman, who would then share them with us?
    Dr. Acheson. I would be happy to. Those lists are 
classified, so within those confines, sure.
    Mr. Donnelly. Thank you very much.
    The Chairman. I thank the gentleman. I was wondering if 
there have been different discussions about how to deal with 
this and apparently, you have added an new position at FDA. 
What are your reactions to these folks that want to create a 
new food agency that is separate where that they set up some 
separate agency and I guess put all you guys in there or 
something. What is your reaction to that?
    Dr. Acheson. Are you asking me?
    The Chairman. Both of you.
    Dr. Acheson. Well, let me start. I think whenever one is 
looking to make change, you need to be very careful that in the 
process you don't actually make matters worse. Whether that is 
a big reorganization or a small one, and the one that you are 
alluding to would be big. Simply moving boxes around seldom 
solves a problem. However this is approached, it needs to be 
approached strategically; it needs to be approached with 
adequate resources and it needs to be done carefully. 
Ultimately, with your suggestion, could it work, potentially, 
at some point? Sure, perhaps. But it would need to be done in 
the way I have described. Right now, the system, with the 
communication that we have between the various agencies, is 
working remarkably well. We have constant interaction, constant 
communication. And I would worry that simply embarking on a 
strategy like that could, in fact, put us back and not bring us 
forward.
    The Chairman. Yes, that has been my concern too, given the 
experience we had with Homeland Security. Hopefully we learned 
our lesson, but we could actually put ourselves in a situation 
that seems like we are, in my opinion, not doing anywhere near 
what we should in terms of all this imported food coming in. If 
we try to do something like this, we would basically be out of 
commission for two years. It would probably make sense to just 
stop importing food while we are going through this, because we 
couldn't guarantee anything, during all the commotion that 
happens. So it seems you have some of the same concerns I do. 
Mr. Petersen?
    Dr. Petersen. I would agree. Certainly we need to have a 
notion of what the solution is going to do as far as addressing 
the problem you think you are trying to solve. I think the 
agencies, the FDA and USDA, in this situation, certainly have 
complementary authorities. I don't see a lot of duplicative 
authorities and so this current situation, I think is an 
example of how the agencies can leverage their individual 
resources and get their arms around a particular problem. Are 
there always better ways to do things? Certainly. And I think 
we will always try to find those better ways, but our work 
seems to be complementary with FDA at this point.
    The Chairman. We have a vote. But the other thing I am 
wondering about is that I am sure that whatever you guys come 
up with is going to take extra resources. When I look at the 
huge increase of volume and the fact that we haven't had any 
new resources, I think that is going to be pretty apparent. My 
concern is with rules now and us trying to finally get a handle 
on this budget deficit. How are we going to pay for this? I 
know the administration has proposed user fees, which has been 
dead on arrival in Congress. Has there been any thought or will 
there be any thought to how in the world we will finance this? 
One question I have is, under the trade agreements, could we 
put this cost on the countries where we are trying to get the 
food supply certified? Is it possible to actually add the cost 
on to what is being imported into the country to pay for this 
or is that in violation of the WTO agreements? Do you know?
    Dr. Acheson. I don't specifically know the answer to your 
question, but all of those different complexities would have to 
be examined and you are correct, finding a way to pay for this 
is a key question. But you can't do that until you figure out 
what it is that you want to do and we need to do it quickly.
    The Chairman. Anybody else? We got a couple of minutes. Ms. 
Musgrave or Mr. Boustany, anything else for the good of the 
order here?
    Ms. Musgrave. Thank you, Mr. Chairman. I just want to say, 
that as I talked to my constituents, their main concern is food 
that comes from other countries. Although you have pointed out 
very appropriately that we also have problems with food grown 
in the United States, people have talked to me especially about 
the vulnerability of young children and how they react to E. 
coli and Listeria and many of those things that are so very 
dangerous to small children.
    It is not only the food consumed in homes of course, it is 
in restaurants too. Sometimes it is the way the food is 
handled. But we do make the assumption in this country that our 
food is safe, for the most part. What a horrific job you have 
in front of you, but this issue with the pet food has certainly 
illustrated our vulnerability and when we do make those 
assumptions that this is safe and we are going to be able to 
feed it to our children, we may be very wrong.
    I also worry about the consequences of people that would do 
harm to citizens in our nation. Now that this has happened, 
they are now very aware of how vulnerable we are. Thank you, 
Mr. Chairman.
    The Chairman. Thank the gentlelady. Mr. Boustany?
    Mr. Boustany. I would just say thank you, Mr. Chairman, for 
holding this hearing. Gentlemen, your testimony and your 
answers to the questions were very informative. I certainly 
appreciate it and we look forward to working with you as we go 
forward. Thank you.
    The Chairman. I thank the gentleman and we will look 
forward to the information that was requested by the committee 
members being forwarded to us. Again, thank you for being with 
us today and I am sure we will be discussing this more often as 
time goes along. Thank you very much. The Committee stands 
adjourned.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1165.001
    
    [GRAPHIC] [TIFF OMITTED] T1165.002
    
    [GRAPHIC] [TIFF OMITTED] T1165.003
    
    [GRAPHIC] [TIFF OMITTED] T1165.004
    
    [GRAPHIC] [TIFF OMITTED] T1165.005
    
    [GRAPHIC] [TIFF OMITTED] T1165.006
    
    [GRAPHIC] [TIFF OMITTED] T1165.007
    
    [GRAPHIC] [TIFF OMITTED] T1165.008
    
    [GRAPHIC] [TIFF OMITTED] T1165.009
    
    [GRAPHIC] [TIFF OMITTED] T1165.010
    
    [GRAPHIC] [TIFF OMITTED] T1165.011
    
    [GRAPHIC] [TIFF OMITTED] T1165.012
    
    [GRAPHIC] [TIFF OMITTED] T1165.013
    
    [GRAPHIC] [TIFF OMITTED] T1165.014
    
    [GRAPHIC] [TIFF OMITTED] T1165.015
    
    [GRAPHIC] [TIFF OMITTED] T1165.016
    
    [GRAPHIC] [TIFF OMITTED] T1165.017
    
    [GRAPHIC] [TIFF OMITTED] T1165.018
    
    [GRAPHIC] [TIFF OMITTED] T1165.019
    
    [GRAPHIC] [TIFF OMITTED] T1165.020
    
    [GRAPHIC] [TIFF OMITTED] T1165.021
    
    [GRAPHIC] [TIFF OMITTED] T1165.022
    
    [GRAPHIC] [TIFF OMITTED] T1165.023
    
    [GRAPHIC] [TIFF OMITTED] T1165.024
    
    [GRAPHIC] [TIFF OMITTED] T1165.025
    
    [GRAPHIC] [TIFF OMITTED] T1165.026
    
    [GRAPHIC] [TIFF OMITTED] T1165.027
    
    [GRAPHIC] [TIFF OMITTED] T1165.028
    
    [GRAPHIC] [TIFF OMITTED] T1165.029
    
    [GRAPHIC] [TIFF OMITTED] T1165.030
    
    [GRAPHIC] [TIFF OMITTED] T1165.031
    
    [GRAPHIC] [TIFF OMITTED] T1165.032
    
    [GRAPHIC] [TIFF OMITTED] T1165.033
    
    [GRAPHIC] [TIFF OMITTED] T1165.034
    
    [GRAPHIC] [TIFF OMITTED] T1165.035
    
    [GRAPHIC] [TIFF OMITTED] T1165.036
    
    [GRAPHIC] [TIFF OMITTED] T1165.037
    
    [GRAPHIC] [TIFF OMITTED] T1165.038
    
    [GRAPHIC] [TIFF OMITTED] T1165.039
    
    [GRAPHIC] [TIFF OMITTED] T1165.040
    
    [GRAPHIC] [TIFF OMITTED] T1165.041
    
    [GRAPHIC] [TIFF OMITTED] T1165.042
    
    [GRAPHIC] [TIFF OMITTED] T1165.043
    
    [GRAPHIC] [TIFF OMITTED] T1165.044
    
    [GRAPHIC] [TIFF OMITTED] T1165.045
    
                                 <all>

</pre></body></html>
